CERTIFICATE OF SERVICE

I, James Kerr Schlosser, pro se petitioner, hereby certify that I have served a copy of this
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STA 1ES COURT REGARDING A DECISION
FROM THE UNIFED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT,
upon the following through the USPS, by first-class mail to the following address:

NOEL JOHN FRANCISCO, SOLICITOR GENERAL
OFFICE OF THE SOLICITOR GENERAL
US DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
FRANK R. COSTELLO, ESQ.
UNITED STATES ATTORNEY'S OFFICE
615 CHESTNUT STREET
SUITE 1250
PHILADELPHIA, PA 19106

Respectfully submitted,
Date July 6th, 2019
James Kerr Schlosser
1828 Krystal Drive
Lancaster, Pa. 17601

3

